gO-8146
NO.
IN THE SUPREME COURT OF THE UNITED STATES

Edward Lee Smith,
Petitioner,
-vs.United States of America,
Respondent.

On Petition for Writ of Certiorari to
the Eighth Circuit Court of Appeals

FILED
MAY 1 2 2021

Petition for Writ of Certiorari

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Edward Lee Smith
Reg. No. 08506-041
Unit C
Federal Correctional
Institution Sandstone
PO Box 1000
Sandstone, MN 55072

QUESTION PRESENTED FOR REVIEW
1.

Whether the District Court committed significant procedureal error
when it mistakenly interpreted section 7B1.3(f) of the United States
Sentencing Guidelines as compulsory, thus, running afoul of this
Court's holding in UNITED STATES v. BOOKER, 543 U.S. 220, 246
(2005).

-ii-

TABLE OF CONTENTS
i

Table of Contents

hi

Question Presented for Review

iii

Table of Authorities
Opinion Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Statement of the Case

2

Reason for Granting the Writ
I.

The Eighth Circuit has sanctioned a significant
procedural error made by the lower court which
effects the substantial rights of the petitioner.

4' '

Conclusion
Appendix
Opinion of the United States Court of the Eighth Circuit
Judgement of the United States District Court for the
District of Minnesota

-i-

la
6a

TABLE OF AUTHORITIES

-iii

OPINION BELOW
Petitioner Edward Lee Smith, respectfully pray that a writ of certiorari
issue to review the judgement of the Eighth Circuit Court of Appeals in Case
No.

19-3528 entered on 23 December 2020.

No rehearing or rehearing eri

banc was filed.

JURISDICTION
The panel of the Eighth Circuit Court of Appeals entered its judgement
on 23 December 2020.

Jurisdiction of this Court is invoked under 28 U.S.C.

§ 1254.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Constitution, amend. VI:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district wherein
the crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
U.S.S.G. § 7B1.3(f) :
(f) Any term of imprisonment imposed upon the revocation of probation
or supervised release shall be ordered to be served consecutively to any
sentence of imprisonment that the defendant is serving, whether or not the
sentence of imprisoment being served resulted from the conduct that is the
basis of the revocation of probation or supervised release.

-1-

STATEMENT OF THE CASE
In 2008, a jury convicted Petitioner Smith of possession with the intent
He was sentenced

to distribute cocaine base and manufacturing cocaine base.
to

120

months

February 2019

imprisonment

and

eight

years

of

supervised

release.

In

while Smith was still on supervised release - the United

States Probation Office filed a Petition for Violation of Supervised Release.
In the Petition, the Probation Office alleged that Smith had violated the terms
and conditions of his supervised release by, among other things, possessing
controlled substances.

In May 2019, based on the same conduct, Smith was

charged with one count of possession with intent to distribute controlled
In July 2019, pursuant to a plea agreement, Smith pled guilty

substances.
to this count.

As a part of Smith's plea agreement, the government agreed

to raise no objection to Smith serving concurrent (rather than consecutive)
sentences

for his possession charge and for his then-pending supervised

release violation.
At Smith's sentencing hearing, the district court reminded Smith that
his

guilty

plea

to

the

supervised release terms.

possession

charge

implicated

a

violation of

his

The district court stated, "And, of course. . .the

plea to this involves a violation of your sentencing supervised release from
your previous case, because there's a new offense and you had obviously
a requrement to have no new offenses and not be involved with narcotics."
S.Tr.

at

.

Smith

revocation petition.

acknowledged this

and

waived

any hearing

on

the

The district court stated, ”[T]he record will reflect that

the hearing has been waived, and we’ll treat that case as a part of this case
under the circumstances and do both sentencings at once."

-2-

Id. at

.

The district court then discussed the Sentencing Guidelines and the
Guidelines impact on Smith's case before acknowledging that the parties' plea
agreement "simplifie[dj" much of the sentencing process.

S.Tr. 2-4.

The

district court calculated the Guidelines range for Smith's new offense as 168
to 210 months imprisonment and noted the parties' plea agreement (and the
agreed-to-range of 144 to 216-months imprisonment).

The court stated; "It

seems to me that there's sort of an assumption that [Smith's sentences] would
be concurrent,

but looking at the law it looks to me pretty clear that I

probably should be imposing consecutive time on that."

Id. at 13.

Later

in that hearing, the court stated;
I am going to adjust things a little differently than counsel ha[s]
done and impose a consecutive sentence, because I think it's
required as I read the [G]uidelines or it makes sense to me that
it does. So there should be some recognition of committing
another federal felony offense, while you are already on federal
probation, should be warranted of consecutive time.
S.Tr. at 21.

Ultimately, the district court sentenced Smith to 180 months

imprisonment on the new conviction and 30 months imprisonment for his
supervised release violation to be served consecutively, for a total of 210
months.

The court also imposed a supervised release term of eight years.

Smith then appealed to the Eighth Circuit Court of Appeals claiming
that;

"The District Court committed a significant procedural error when it

concluded that a consecutive sentence was required for the supervised release
violation when the Sentencing Guidelines are advisory and the District Court
had the authority and discretion to impose a concurrent or consecutive
sentence." App.Br. at p.iii.

-3-

The Eighth Circuit affirmed the District Court, Op. at p.5, holding that
although "[t]he district court's statements could have been more precise.",
based

on

the

entire

record,

it

was

evident

that

the

district

court

" [understood the Sentencing Guidelines were advisory rather than mandatory
and exercised its discretion in ordering consecutive sentences."

Id.

REASON FOR GRANTING THE WRIT
I. The Eighth Circuit has sanctioned a significant procedural
made by the lower court which effects the substantial rights
of the petitioner, thus requiring this Court's intervention.
In UNITED STATES v.

BOOKER,

534 U.S.

220,

125

S.Ct. 738,

160

L.Ed. 2d 621 (2005), this Court held that the Sixth Amendment guarantee
of a right to a jury trial, as construed in BLAKELY v. WASHINGTON, 52-4
U.S. 296 (2004), applied to the Sentencing Guidelines, and that b^r severing
the statutory provisions concerning mandatory applicability the Guidelines
are now effectively advisory.

In Smith's case, as demonstrated by the lower

court's statements at sentencing, it is clear that the court did not obey this
Court's findings and, instead interpreted section 7B1.3(f) as mandatory.
In so doing, the lower court as well as the Eighth Circuit Court of Appeals
have violated Smith's substantial rights and therefore the case must be remanded
back to the lower court with instructions in accordance with BOOKER.

-4-

